<html>
<title> - EXAMINING THE EFFECTIVENESS OF THE NIST LABORATORIES</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                      EXAMINING THE EFFECTIVENESS
                        OF THE NIST LABORATORIES

=======================================================================

                                HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON TECHNOLOGY

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                       WEDNESDAY, MARCH 20, 2013

                               __________

                           Serial No. 113-16

                               __________

 Printed for the use of the Committee on Science, Space, and Technology


       Available via the World Wide Web: http://science.house.gov



                  U.S. GOVERNMENT PRINTING OFFICE
80-554                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e384938ca3809690978b868f93cd808c8ecd">[email&#160;protected]</a>  


              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
DANA ROHRABACHER, California         EDDIE BERNICE JOHNSON, Texas
RALPH M. HALL, Texas                 ZOE LOFGREN, California
F. JAMES SENSENBRENNER, JR.,         DANIEL LIPINSKI, Illinois
    Wisconsin                        DONNA F. EDWARDS, Maryland
FRANK D. LUCAS, Oklahoma             FREDERICA S. WILSON, Florida
RANDY NEUGEBAUER, Texas              SUZANNE BONAMICI, Oregon
MICHAEL T. McCAUL, Texas             ERIC SWALWELL, California
PAUL C. BROUN, Georgia               DAN MAFFEI, New York
STEVEN M. PALAZZO, Mississippi       ALAN GRAYSON, Florida
MO BROOKS, Alabama                   JOSEPH KENNEDY III, Massachusetts
RANDY HULTGREN, Illinois             SCOTT PETERS, California
LARRY BUCSHON, Indiana               DEREK KILMER, Washington
STEVE STOCKMAN, Texas                AMI BERA, California
BILL POSEY, Florida                  ELIZABETH ESTY, Connecticut
CYNTHIA LUMMIS, Wyoming              MARC VEASEY, Texas
DAVID SCHWEIKERT, Arizona            JULIA BROWNLEY, California
THOMAS MASSIE, Kentucky              MARK TAKANO, California
KEVIN CRAMER, North Dakota           VACANCY
JIM BRIDENSTINE, Oklahoma
RANDY WEBER, Texas
CHRIS STEWART, Utah
VACANCY
                                 ------                                

                       Subcommittee on Technology

                  HON. THOMAS MASSIE, Kentucky, Chair
RANDY HULTGREN, Illinois             FREDERICA S. WILSON, Florida
DAVID SCHWEIKERT, Arizona            SCOTT PETERS, California
JIM BRIDENSTINE, Oklahoma            DEREK KILMER, Washington
                                     EDDIE BERNICE JOHNSON, Texas
LAMAR S. SMITH, Texas


                            C O N T E N T S

                       Wednesday, March 20, 2013

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Thomas Massie, Chairman, Subcommittee 
  on Technology, Committee on Science, Space, and Technology, 
  U.S. House of Representatives..................................     7
    Written Statement............................................     8

Statement by Representative Frederica S. Wilson, Ranking Minority 
  Member, Subcommittee on Technology, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........     8
    Written Statement............................................     9

                               Witnesses:

Dr. Willie E. May, Associate Director for Laboratory Programs, 
  National Institute of Standards and Technology
    Oral Statement...............................................    11
    Written Statement............................................    14

Dr. Ross B. Corotis, Denver Business Challenge Professor, 
  University of Colorado at Boulder; Member, Laboratory 
  Assessments Board, National Research Council of the National 
  Academy of Sciences
    Oral Statement...............................................    24
    Written Statement............................................    26

Discussion.......................................................    34

             Appendix I: Answers to Post-Hearing Questions

Dr. Willie E. May, Associate Director for Laboratory Programs, 
  National Institute of Standards and Technology.................    46

            Appendix II: Additional Material for the Record

2012 Annual Report Visiting Committee on Advanced Technology 
  (VCAT) of the National Institute of Standards and Technology, 
  U.S. Department of Commerce, submitted by Representative Thomas 
  Massie, Chairman, Subcommittee on Technology, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..    50

Material Measurement Laboratory: An Overview of Our Programs in 
  Biology, Chemistry and Materials Science, National Institute of 
  Standards and Technology, U.S. Department of Commerce, 
  submitted by Dr. Willie E. May, Associate Director for 
  Laboratory Programs, National Institute of Standards and 
  Technology.....................................................    67


          EXAMINING THE EFFECTIVENESS OF THE NIST LABORATORIES

                              ----------                              


                       WEDNESDAY, MARCH 20, 2013

                  House of Representatives,
                                   Subcommittee on Research
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittee met, pursuant to call, at 2:01 p.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Thomas 
Massie [Chairman of the Subcommittee] presiding.

[GRAPHIC] [TIFF OMITTED] T0554.001

[GRAPHIC] [TIFF OMITTED] T0554.002

[GRAPHIC] [TIFF OMITTED] T0554.003

[GRAPHIC] [TIFF OMITTED] T0554.004

[GRAPHIC] [TIFF OMITTED] T0554.005

    Chairman Massie. The Subcommittee on Technology will come 
to order. Good afternoon. Welcome to today's hearing, entitled 
``Examining the Effectiveness of NIST Laboratories.'' In front 
of you are packets containing the written testimony, 
biographies, and truth-in-testimony disclosures for today's 
witness panel. I recognize myself for five minutes for an 
opening statement.
    This afternoon's hearing is being held to examine the 
effectiveness of the laboratory programs at the National 
Institute of Standards and Technology. This hearing will help 
inform the Committee as it considers reauthorization of NIST 
and its laboratories later this year.
    Measurement science conducted at NIST laboratories 
contributes to industrial competitiveness by buttressing the 
technical infrastructure for advancements in nanotechnology, 
global positioning systems, materials sciences, cybersecurity, 
health information technology, and a variety of other fields.
    Research conducted at NIST laboratories has been lauded by 
independent outside review panels as being among the best in 
the world. Indeed, NIST researchers have been awarded four 
Nobel prizes in physics in the last 15 years.
    As the Committee considers reauthorization of NIST, it is 
important for Committee Members to know whether the research 
conducted at NIST laboratories is effective. It is also 
important to understand how NIST prioritizes and coordinates 
research projects, and how NIST balances its portfolio of 
research between short-term, lower-risk, lower-reward projects 
and long-term, higher-risk, higher reward projects.
    The National Academies have recently conducted assessments 
of three NIST laboratories and have conducted a cross-cutting 
review of manufacturing-related programs at NIST. Dr. Corotis 
will be summarizing the findings of these recent reviews in his 
testimony today. While these reviews are mostly positive, they 
have also identified areas for improvements. The Subcommittee 
looks forward to exploring the Academies' recommendations this 
afternoon.
    America is currently more than $16 trillion in debt and is 
running massive deficits on an annual basis. Congress's job is 
to set priorities. One of the best things we as policy makers 
can do to improve our economic competitiveness is to get our 
fiscal house in order. Industry leaders are currently sitting 
on large cash reserves. They will be reticent to invest that 
money here in America until they see that the country is on a 
sustainable path and a sustainable budget.
    Just as it is important for our country to prioritize 
spending decisions, it is also important for our research 
agencies to do so. We look forward to understanding how NIST 
can prioritize project decisions in a fiscally responsible 
manner while contributing to U.S. innovation and 
competitiveness.
    I would like to extend my appreciation to each of our 
witnesses, Dr. May and Dr. Corotis, for taking time today and 
the effort to appear before us. We look forward to your 
testimony.
    [The prepared statement of Mr. Massie follows:]

              Prepared Statement of Chairman Thomas Massie

    Good afternoon, I'd like to welcome everyone to today's hearing, 
which is being held to examine the effectiveness of the laboratory 
programs at the National Institute of Standards and Technology. This 
hearing will help inform the Committee as it considers reauthorization 
of NIST and its laboratories later this year.
    Measurement science conducted at NIST laboratories contributes to 
industrial competitiveness by buttressing the technical infrastructure 
for advancements in nanotechnology, global positioning systems, 
materials sciences, cybersecurity, health information technology, and a 
variety of other fields. Research conducted at NIST laboratories has 
been lauded by independent outside review panels as being among the 
best in the world. Indeed, NIST researchers have been awarded four 
Nobel prizes in Physics in the last 15 years.
    As the Committee considers reauthorization of NIST, it is important 
for Committee Members to know whether the research conducted at NIST 
laboratories is effective. It is also important to understand how NIST 
prioritizes and coordinates research projects, and how NIST balances 
its portfolio of research between short-term, lower-risk, lower-reward 
projects and long-term, higher-risk, higher reward projects.
    The National Academies have recently conducted assessments of three 
NIST laboratories and have conducted a cross-cutting review of 
manufacturing-related programs at NIST. Dr. Corotis will be summarizing 
the findings of these recent reviews in his testimony today. While the 
reviews are mostly positive, they have also identified areas for 
improvements. The Subcommittee looks forward to exploring the 
Academies' recommendations this afternoon.
    America is currently more than $16 trillion in debt and is running 
massive deficits on an annual basis. Congress's job is to set 
priorities. One of the best things we as policy makers can do to 
improve our economic competitiveness is to get our fiscal house in 
order. Industry leaders are currently sitting on large cash reserves. 
They will be reticent to invest that money here in America until they 
see that the country is on a sustainable budget path.
    Just as it is important for the country to prioritize spending 
decisions, it is also important for our research agencies to do so. We 
look forward to understanding how NIST can prioritize project decisions 
in a fiscally responsible manner while contributing to US innovation 
and competitiveness. I'd like to extend my appreciation to each of our 
witnesses for taking the time and effort to appear before us today. We 
look forward to your testimony.

    Chairman Massie. I now recognize the Ranking Member, the 
gentlelady from Florida, Ms. Wilson, for an opening statement.
    Ms. Wilson. Thank you, Chairman Massie. Thank you for 
holding this hearing to examine the effectiveness of the 
laboratory programs at the National Institute of Standards and 
Technology, and thank you to our witnesses for being here 
today.
    It is essential that we learn more about important work 
being conducted at NIST's laboratories, as this Subcommittee 
looks to reauthorize the agency through the America COMPETES 
Act. While I am so pleased to hear from our two witnesses this 
afternoon, it is unfortunate that we do not have a member from 
NIST's advisory committee, or VCAT, as it is commonly known, 
testifying here today. I understand there were scheduling 
conflicts, but having an oversight hearing without a witness 
from the group specifically tasked by Congress to review and 
make recommendation regarding NIST management and policy is 
regrettable.
    NIST is small in size, yet tremendous in impact. For more 
than 100 years, it has promoted the competitiveness of U.S. 
industry by advancing measurement, science, standards, and 
technology. NIST has broaden technical expertise, as well as a 
unique ability to bridge public and private sector work. The 
America COMPETES Act of 2010 included the first major 
reorganization of the agency in decades, streamlining NIST's 
laboratories from ten labs to six. The purpose of the 
reorganization was to create mission-focused laboratories that 
were vertically integrated. In other words, a single lab would 
be responsible for everything from basic research to the 
delivery of products and services to its customers. VCAT 
supported the reorganization and reviewed it positively, 
including acknowledging the importance of the new position of 
associate director for laboratory programs, a position held by 
one of our esteemed witnesses, Dr. Willie May.
    Since the reorganization is relatively new, it is important 
that we continue to follow its progress and the activities of 
the new laboratories. I look forward to hearing how the 
reorganization is going from the witnesses.
    I am also interested in hearing about NIST's cross-cutting 
research efforts. Under this Administration, it has taken on a 
prominent role in ensuring that American manufacturers remain 
competitive in the global marketplace. Manufacturing in the 
United States has changed from an industry losing jobs to an 
industry adding jobs, and its activities have the potential to 
continue that trend by helping manufacturers develop innovative 
products and processes. I look forward to hearing from the 
witnesses about the manufacturing programs at NIST, and what, 
if any, policies that would be recommended to help promote 
these programs as the Subcommittee discusses reauthorizing 
NIST.
    Another cross-cutting research effort NIST is undertaking 
is in the field of bioscience. To ensure that countless new 
biological innovations can be transformed into useful products 
and services, we need new measurement technologies and 
standards. I am interested in hearing more about what NIST is 
doing in this area from our witnesses today. Both these cross-
cutting research programs highlight the important work NIST is 
doing to promote innovation, commercialization, and business 
growth for our Nation.
    In a time when we should be doing everything to ensure our 
Nation's leadership position in innovation, we are talking 
about cutting the budgets of agencies like NIST. The America 
COMPETES Act put science agencies, including NIST, on a double 
funding path so that the United States could maintain its 
competitive edge, but unfortunately, these levels have not been 
appropriated. Additionally, sequestration will have real 
impacts on NIST, including the elimination of grants and 
contracts, delayed or canceled equipment purchases, and 
deferred repair and maintenance of NIST facilities. We need to 
be making smart investments that will help our Nation's economy 
grow. I hope we will focus on making those needed investments 
when we reauthorize NIST.
    Mr. Chairman, again, thank you for holding this hearing, 
and I look forward to working with you and our colleagues to 
ensure that NIST has what it needs to fulfill its important 
mission.
    I yield back the balance of my time.
    [The prepared statement of Ms. Wilson follows:]

     Prepared Statement of Ranking Minority Member Frederica Wilson

    Thank you, Chairman Massie for holding this hearing to examine the 
effectiveness of the laboratory programs at the National Institute of 
Standards and Technology, and thank you to our witnesses for being here 
today.
    Today's hearing provides us with the opportunity to review the 
important work being conducted at NIST's laboratories as part of the 
Subcommittee's efforts to reauthorize this agency through the America 
COMPETES Act.
    Although I am excited to hear from our two witnesses this 
afternoon, I think it is unfortunate that we do not have a member from 
NIST's advisory committee--or V-CAT as it is commonly known--testifying 
here today. I understand there were scheduling conflicts, but having an 
oversight hearing without a witness from the group specifically tasked 
by Congress to review and make recommendations regarding NIST 
management and policy is regrettable.
    NIST is a relatively small agency, but is an extremely important 
player in federal efforts to spur innovation and economic prosperity in 
this country.
    For more than 100 years, NIST has supported the competitiveness of 
U.S. industry by advancing measurement science, standards, and 
technology. NIST's broad and deep technical expertise, as well as its 
ability to serve as a bridge to U.S. businesses, is unparalleled.
    The America COMPETES Act of 2010 included the first major 
reorganization of the agency in decades, streamlining NIST's 
laboratories from ten labs to six. The purpose of the reorganization 
was to create mission-focused laboratories that were vertically 
integrated so a single lab would be responsible for everything from 
basic research to the delivery of products and services to its 
customers.
    VCAT supported the reorganization and reviewed it positively 
including acknowledging the importance of the new position of Associate 
Director for Laboratory Programs, a position held by one of our 
witnesses, Dr. Willie May.
    Since the reorganization is relatively new, it is important that we 
continue to follow its progress and the activities of the new 
laboratories. I look forward to hearing how the reorganization is going 
from the witnesses.
    In addition to learning more about the research and activities 
happening in each of the six labs, I am interested in hearing about 
NIST's cross-cutting research efforts.
    Under this Administration, NIST has taken on a prominent role in 
ensuring that American manufacturers remain competitive in the global 
marketplace. Manufacturing in the United States has changed from an 
industry losing jobs to an industry adding jobs. And NIST's activities 
have the potential to continue that trend by helping manufacturers 
develop innovative products and processes.
    I look forward to hearing from the witnesses about the 
manufacturing programs at NIST and what--if any--policies they would 
recommend to help promote those programs as the Subcommittee discusses 
reauthorizing NIST.
    Another cross-cutting research effort NIST is undertaking is in the 
field of bioscience. During the last few decades, we have seen an 
explosion in biological knowledge-knowledge that has the potential for 
new cures and treatments for diseases. This exciting time brings along 
with it new measurement challenges. To ensure those new biological 
innovations, we need new measurement technologies and standards. I am 
interested in hearing more about what NIST is doing in this area from 
our witnesses today.
    Both these cross-cutting research programs highlight the important 
work NIST is doing to promote innovation, commercialization, and 
business growth for our nation. At a time when we should be doing 
everything to ensure our nation's leadership position in innovation, we 
are talking about cutting the budgets of agencies like NIST. The 
America COMPETES Act put science agencies, including NIST, on a double 
funding path so that the United States could maintain its competitive 
edge, but unfortunately those levels have not been appropriated.
    Additionally, sequestration will have real impacts on NIST, 
including the elimination of grants and contracts, delayed or canceled 
equipment purchases, and deferred repair and maintenance of NIST 
facilities. We need to be making smart investments that will help our 
nation's economy grow. I hope we will focus on making those needed 
investments when we reauthorize NIST.
    Mr. Chairman, thank you again for holding this hearing and I look 
forward to working with you and our colleagues to ensure that NIST has 
what it needs to fulfill its important mission.

    Chairman Massie. Thank you, Ms. Wilson.
    At this time, I ask unanimous consent to add the NIST 
Visiting Committee on Advanced Technology's 2012 annual report 
to the record. Without objection, so ordered.
    [The information appears in Appendix II]
    Chairman Massie. If there are Members who wish to submit 
additional opening statements, their statements will be added 
to the record at this point.
    At this time, I would like to introduce our witnesses. Our 
first witness is Dr. Willie May, the Associate Director for 
Laboratory Programs. In this capacity, Dr. May provides the 
oversight and direction of NIST's six laboratory programs.
    Our second witness is Dr. Ross Corotis, the Denver Business 
Challenge Professor and the Department of Civil, Environmental, 
and Architectural Engineering at the University of Colorado at 
Boulder. He also serves as Chair of the National Research 
Council Committee on Assessment of NIST's Technical Programs. 
Dr. Corotis received a doctoral degree in civil engineering 
with a concentration in structural mechanics from my alma 
mater, the Massachusetts Institute of Technology.
    As our witnesses should know, spoken testimony is limited 
to five minutes each, after which the Members of the Committee 
will have five minutes each to ask questions.
    I now recognize Dr. May to present his testimony.

                TESTIMONY OF DR. WILLIE E. MAY,

          ASSOCIATE DIRECTOR FOR LABORATORY PROGRAMS,

         NATIONAL INSTITUTE OF STANDARDS AND TECHNOLOGY

    Dr. May. Chairman Massie, Ranking Member Wilson, and 
Members of the Subcommittee, thank you for the opportunity to 
testify today. As stated earlier, I am Willie May, Associate 
Director for Laboratory Programs at the National Institute of 
Standards and Technology.
    Since 1901, NIST, as a non-regulatory agency in the 
Department of Commerce, has maintained the U.S. national 
standards for measurement. Our mission is to promote U.S. 
innovation and industrial competitiveness by advancing 
measurement science, standards, and technology in ways that 
enhance economic security and improve our quality of life. In 
carrying out this Congressionally mandated role rooted in the 
U.S. Constitution, we have been supplying the measurement 
standards and other tools to help industry innovate and compete 
for over 100 years. Since our inception, in addition to 
maintaining the more traditional national standards of 
measurement, we have focused a significant portion of our 
research and measurement service activities on addressing 
contemporary societal needs. We have worked with industry, 
other government agencies, and the scientific community to 
ensure that as new measurement standards and technology needs 
develop, our laboratory program evolves to meet them.
    The work of the NIST laboratory program focuses on three 
primary areas: driving innovation through measurement science, 
accelerating the adoption and deployment of advanced technology 
solutions, and providing unique world class, cutting edge 
research facilities for use by industry and academia.
    So how is this accomplished? In three ways, actually. 
First, we maintain an excellent program in scientific 
discovery. As stated rather eloquently by one of our former 
directors, Alan Aston, back in the 1950s, while the development 
and maintenance of standards provides the first and primary 
reason for our existence, we recognize that our standards work 
must keep abreast with expansion of the frontiers of science. 
In that regard, as stated previously, in the last 15 years NIST 
researchers have been awarded four Nobel Prizes in physics. 
Additionally, we have got--our staff have received the Kyoto 
Prize in material science, which is essentially the Nobel for 
material science, two National Science awards, a MacArthur 
Award, the so-called genius award, the L'Oreal Enesco Women and 
Science Award, and over 100 other national scientific awards 
and prizes.
    Because of our stature in the community, more than 2,800 
collaborating researchers come to NIST each year to work 
alongside our approximately 1,500 federal scientists and 
engineers in delivering our mission, giving us a great 
leveraging effect.
    We also address key national priorities. Our capabilities 
and our technical know-how have us poised to support a number 
of diverse emerging areas that include advanced manufacturing, 
additive, bio, nano, advanced materials, smart manufacturing 
and cyber physical systems, forensics that is providing in 
science debates for its use in the criminal justice system, and 
energy efficiency and sustainability.
    Two of our best-known current examples of how our expertise 
in measurements and standard and our expertise in supporting 
industry has put us in a favorable position to accelerate the 
transition from world class research to applied solutions and 
new technology adoption, our work on the smart grid and our 
work with cybersecurity. With respect to the latter, we 
recently established a National Cybersecurity Center of 
Excellence where we bring research done in our laboratories to 
the private sector so that they can work with us to adopt and 
implement our standards into their platforms, and supporting 
the Obama Administration's National Strategy for Trusted 
Identities in Cyberspace, so-called NSTIC.
    We also provide the measurement standards and technology to 
address our stakeholder needs. This broad research base depends 
on our delivery of our Standard Reference Materials used to 
calibrate and validate measurement systems, calibration 
services where energy sends devices to us to calibrate and 
Standard Reference Data products. And again, the combination of 
the three, industry uses these to ensure the quality of their 
measurements and--development of new products and services.
    Looking to the future, we are working to develop so-called 
NIST on a chip. This will be a suite of portable, highly 
precise devices that will provide customers with in-place 
precision measurements and standards needed to keep pace with 
the ever-accelerating product development cycle. They won't 
have to then send devices to us to calibrate, which takes time 
and can be costly. These calibrations will be built into the 
devices that they use.
    In addition, NIST provides industry, academia, and other 
government agencies with unique user facilities and the 
accompanying technical expertise that supports innovation in 
material science, nanotechnology, and other emerging technology 
areas. Our Center for Neutron Research provides neutron-based 
measurement capabilities to U.S. researchers from the private 
sector through providing them access to 30 very unique 
measurement tools on a merit basis. Our Center for Nanoskill 
Science and Technology reduces barriers to innovation by 
providing industry, academia, and other government agencies 
access to world-class nanoscale measurement and fabrication 
tools, methods, and technology.
    In the few years since its inception, the number of our 
research participants has grown from zero to more than 1,600. 
We are currently serving close to 250 different companies in 
that facility.
    Mr. Chairman, in conclusion, the NIST laboratories play a 
unique role in our Nation's research and technology development 
enterprise. We sit at the nexus of science and industry, 
conducting cutting edge world-class measurement science in 
developing standards that allow industry to innovate and 
compete successfully in the global economy. I am aware that I 
have probably not addressed many of the questions that you 
asked in your opening statement, so certainly thank you for 
inviting me to testify today, and since time did not permit me 
to elaborate----
    Chairman Massie. We will have plenty of questions.
    Dr. May. Okay.
    Chairman Massie. That is a wonderful opening statement.
    Dr. May. I would be happy to address any questions you 
might have.
    [The prepared statement of Dr. May follows:]

    [GRAPHIC] [TIFF OMITTED] T0554.006
    
    [GRAPHIC] [TIFF OMITTED] T0554.007
    
    [GRAPHIC] [TIFF OMITTED] T0554.008
    
    [GRAPHIC] [TIFF OMITTED] T0554.009
    
    [GRAPHIC] [TIFF OMITTED] T0554.010
    
    [GRAPHIC] [TIFF OMITTED] T0554.011
    
    [GRAPHIC] [TIFF OMITTED] T0554.012
    
    [GRAPHIC] [TIFF OMITTED] T0554.013
    
    [GRAPHIC] [TIFF OMITTED] T0554.014
    
    [GRAPHIC] [TIFF OMITTED] T0554.015
    
    Chairman Massie. Okay, thank you, Dr. May.
    I now recognize Dr. Corotis for five minutes to present his 
testimony.

               TESTIMONY OF DR. ROSS B. COROTIS,

              DENVER BUSINESS CHALLENGE PROFESSOR,

               UNIVERSITY OF COLORADO AT BOULDER;

             MEMBER, LABORATORY ASSESSMENTS BOARD,

                  NATIONAL RESEARCH COUNCIL OF

                THE NATIONAL ACADEMY OF SCIENCES

    Dr. Corotis. Chairman Massie, Ranking Member Wilson, and 
Members of the Subcommittee, it is my pleasure to address you 
today and comment regarding the quality of the NIST 
laboratories.
    As stated, I am Dr. Ross B. Corotis, Chair of the NRC 
Committee on NIST Technical Programs, an elected member of the 
National Academy of Engineering, and an endowed professor at 
the University of Colorado in Boulder.
    As you know, Congress mandates the NIST Visiting Committee 
on Advanced Technology, VCAT, focusing primarily on the NIST 
portfolio and asking, ``is NIST doing the right things?'' VCAT 
members are selected by NIST. The NRC committee, on the other 
hand, is voluntarily engaged by NIST and responsibility for its 
membership, activities, and reports lies completely with the 
National Academies. The NRC assessment of NIST laboratories has 
been provided since 1959, and basically addresses the question, 
``is NIST doing things right?'' It operates with separate 
panels of technical experts for each laboratory and center 
assessed, and has no interaction or reporting relationship with 
VCAT.
    Eight years ago, NIST replaced the NRC annual laboratory 
reviews with biennial ones, and eliminated the overall summary 
report that identified findings spanning the separate 
laboratories. About a year ago, NIST asked the NRC to assess 
the assessment process itself. This study concluded that the 
peer assessment of quality conducted by the NRC was a crucial 
and vital part of the overall assessment strategy. Indeed, the 
report concludes that both the VCAT and NRC aspects of 
assessment are critical. The report develops guidelines for 
assessment in three broad areas: management, the quality of 
scientific and technical work, and relevance and impact. NIST 
fulfills a unique nexus mission, promoting private industry 
competing in a world market. The following statement from a 
Committee report of a few years ago remains valid today. ``NIST 
carries out in a superb fashion an absolutely vital role in 
supporting, as well as facilitating, the further development of 
the technological base of the U.S. economy. The personnel and 
scientific programs of its measurement and standards 
laboratories are among the best in the world.''
    I will quote briefly on the three laboratories mentioned 
from the 2010 and 2011 reports. ``Within the United States, 
there is no other national laboratory or facility that focuses 
on the missions of the NIST physics laboratory, and there is no 
other laboratory worldwide that has had the successes in 
physics that this laboratory has achieved over the past two 
decades.'' There has been no assessment, however, of the new 
Physical Measurements Laboratory since it was formed in 2010. 
Another quote--``The information technology laboratory's 
special publication series provides guidelines that are 
frequently adopted voluntarily in private sector procurements 
and practices.'' And another, ``The Center for Nanoscale 
Science and Technology founded in May 2007, is maturing 
impressively as a state-of-the-art nanoscience and 
nanotechnology center of excellence, aligned with the overall 
mission of NIST.'' All of the CNST facilities are among the 
best in the world, and in many cases, they are unique.
    We are all aware of exceptional capabilities NIST 
demonstrated after the events of September 11, 2001. Their two-
volume CD on the World Trade Center events is the 
authoritatively detailed account of exactly what happened to 
the buildings that day. The establishment by Congress of NIST 
as the home for the National Construction Safety Team Act is 
indicative of the vital and essential role NIST fills in our 
country.
    Now, addressing the issue of whether NIST could increase 
its effectiveness in promoting U.S. innovation and industrial 
competitiveness, I can only note historical challenges in 
managing cross-cutting programs. The recent review mentioned of 
manufacturing related programs provided a welcome and promising 
outcome, and it would be interesting to see whether the 
expanding biosciences program as mentioned is also following a 
sustainable trajectory.
    And finally, my recommendations to the Committee are to 
authorize NIST again at the fullest funding possible, and to 
encourage NIST to avail itself of the continued benefits of the 
NRC assessments, including 1) performing cross-cutting reviews 
as well as laboratory reviews; 2) reinstating the practice of 
examining findings from individual reviews to create a summary 
report; and finally 3) reestablishing and maintaining a formal, 
regular interaction between the NRC and the VCAT teams.
    Again, I very much appreciate the opportunity to share with 
you today the findings of the NRC assessment process for NIST, 
and I would be happy to take the Subcommittee's questions. 
Thank you.
    [The prepared statement of Dr. Corotis follows:]

    [GRAPHIC] [TIFF OMITTED] T0554.016
    
    [GRAPHIC] [TIFF OMITTED] T0554.017
    
    [GRAPHIC] [TIFF OMITTED] T0554.018
    
    [GRAPHIC] [TIFF OMITTED] T0554.019
    
    [GRAPHIC] [TIFF OMITTED] T0554.020
    
    [GRAPHIC] [TIFF OMITTED] T0554.021
    
    [GRAPHIC] [TIFF OMITTED] T0554.022
    
    [GRAPHIC] [TIFF OMITTED] T0554.023
    
    Chairman Massie. Thank you, Dr. Corotis, thank you, Dr. 
May. This is a very important meeting today. I appreciate that 
Members have come here. We have a vote that is now being called 
on the Floor of the House. It is very important that we do ask 
questions, though, and so as soon as these votes are over we 
will return.
    At this point, the Committee will recess, subject to the 
call of the Chair. Without objection, so ordered. Committee 
stands in recess.
    [Recess.]
    Chairman Massie. The Subcommittee will come back to order. 
I thank the witnesses for their testimony, reminding Members 
that Committee rules limit questioning to five minutes.
    The Chair would, at this point, open the round of 
questions. At this point, I am going to recognize Mr. Hultgren 
for five minutes. Thank you.
    Mr. Hultgren. Chairman, thank you so much, and thank you 
for the courtesy of allowing me to jump ahead a little bit 
here. I appreciate that very much.
    Thank you both for being here. I apologize for the busy day 
here on the Hill. There are a lot of different things going on, 
as you all know, but I appreciate your time and your testimony 
very, very much.
    I do want to address the first question to Dr. May. In 
2012, the Visiting Committee on Advanced Technology annual 
report recommends that NIST provide more clarity and depth in 
strategic planning. Can you tell us what steps the laboratory 
programs are taking to improve strategic planning and 
coordination?
    Dr. May. Well certainly. Our formal strategic planning 
process is a work in progress, and I would just like to 
reiterate that the broad mission that we have and the academic 
environment that we live in, with multiple stakeholders, 
requires us to really look at strategic planning in a way that 
most companies cannot. Essentially, what we have done is--as 
stated in the VCAT report--is try to capture sort of what we 
have always done in a rather ad hoc manner; that is, look at 
our planning first through the lens of national priorities. 
These are usually short-term needs, and in addition to being 
poised to address these current needs, we also need to look at 
building capacity to address future problems.
    So addressing the national needs is sort of a top down 
process, if you will, and then looking at capacity building is 
more of a bottoms up with our research staff there involved 
with their research community. They have counterparts in 
industry, other government agencies, and they bring all that 
intelligence back to us to determine what type of technical 
capabilities do we need five, 10 years out, and that begins to 
drive our recruitment processes to make sure we have the right 
staff, also to make sure we have the right physical facilities 
to address needs into the future.
    The other lens that we look through that we probably had 
not paid as much attention to as we maybe could have is sort of 
how are we looking at aggressing improved internal operations? 
So we essentially look at it three ways. The shorter term 
addressing national needs, essentially the here and now, 
looking at building the capacity to address issues that we 
foresee coming up in the future, and then looking at changes 
that we can make to be more efficient custodians of the 
Nation's resources by improving our internal operations.
    Mr. Hultgren. Okay. Well, thank you. I may have some follow 
up, if that is okay, just for some more detail, if we can 
follow up in writing.
    But I want to switch gears just with the couple of minutes 
that I have left, Dr. May. Brain science and medical treatment 
are very important to me. More and more American families are 
finding that their kids are being diagnosed with autism. Their 
parents are being diagnosed with Alzheimer's. I wonder what 
some of the options are for NIST to improve the environment for 
research into these afflictions or development of therapeutics 
to threat them?
    Dr. May. Well, as you perhaps know, historically NIST has 
been a physical sciences and engineering laboratory. Certainly 
over the last decade, we have recognized the importance of 
expanding into the biological sciences. In fact, I had the 
responsibility of developing the organizational and strategic 
plan for our biosciences program. I won't say that we are 
looking at that issue in general, but we are certainly 
positioning ourselves to address issues in the biosciences. 
That particular issue is not on our radar screen yet, but 
certainly if there is a pull from the biomedical community to 
identify that as a top priority, we certainly are becoming 
poised with the right skills and talents to address issues 
looking at various types of diseases. Right now, primarily our 
attention is focused on looking at measurement and standards to 
address genetic diseases and looking at biomanufacturing are 
our two focus areas. But certainly, we are open to looking at 
areas such as the one you mentioned.
    Mr. Hultgren. Real quickly, and I only have a few seconds 
left, but I wonder how about NIST's work with stakeholders and 
how we on the Committee here can improve the research and 
development environment through NIST?
    Dr. May. I guess I didn't quite understand. Can you repeat 
that, please?
    Mr. Hultgren. Yeah. You know, just wondering with NIST's 
work with stakeholders and how we on the Committee can insist 
in improving an R&D environment at NIST, so commitment to 
research and development. As you mentioned, it is difficult to 
have very specific--you know what? I see my time is expired. I 
will follow up with you if we have further questions on that, 
if that is all right. I just respect the Chairman for deferring 
to me, so I am going to yield back. I thank the Chairman so 
much, and we will follow up, if that is okay, with some more--
--
    Dr. May. I would be happy to.
    Mr. Hultgren. Thank you so much. Again, thank you both for 
being here.
    Chairman Massie. I now recognize Ranking Member, Ms. 
Wilson, for five minutes.
    Ms. Wilson. Wow. Thank you. Thank you so much, Mr. Chair. 
Thanks to both of you for being here today, and being cognizant 
of our little schedules, going to vote and coming back. We 
appreciate it.
    This question is--my first question is for you, Dr. May. 
Bioscience is of particular interest to me, because Florida 
International University, which is in my district, is 
partnering with public and private universities, state 
colleges, and economic development councils to leverage 
existing regional life science assets in that area of Miami-
Dade County. In your testimony, you mention how NIST is ideally 
positioned to work with industry and federal regulatory 
agencies to develop innovation solutions to biological 
measurement challenges. NIST has developed a strategic plan for 
its bioscience activities. Could you please give us an update 
on that strategic plan and a review of bioscience related 
research activities being conducted at NIST currently?
    Dr. May. Okay. I will give you a very, very high level 
overview, because to be honest with you, since I moved to my 
current job I am not as aware of what is going every day in the 
Material Measurement Laboratory where most of our bioscience 
related research is going. But back to the strategic plan, I 
will be happy to send you a copy. The plan that we have, we 
conducted an outreach activity a few years back where we looked 
at globally the measurement and standards barriers to 
innovation in the biosciences. So we looked at this, what are 
the issues, period. And then from that, we selected a number of 
areas that NIST would begin to focus on immediately. One of 
those was providing the measurement on depending to improve the 
development and regulatory approval of biologic drugs. But if 
you look at the main pillars of our bioscience program, it is 
in the area of providing better measurement and standards to 
support diagnostics, medical diagnostics. The main emphasis now 
is on genetic diseases. It is to improve the quality of medical 
imaging, because oftentimes when you have a medical image, you 
go to one doctor, then you go to another to get a second 
opinion, and when you really think about it, the truth in that 
image hasn't changed, it is just an interpretation. So we are 
trying to put more science in medical imaging so that devices 
from different manufacturers essentially yield the same truth. 
And then the other area is working to promote, as I said 
earlier, the more effective--efficient development and 
regulatory approval with the FDA of biosimilars of biologic 
drugs. So those are the three focus areas for our program in 
bio.
    Ms. Wilson. Dr. Corotis, since the bioscience related 
research activities at NIST are not housed in one laboratory, 
do you think a review of the bioscience programs by a group 
like the National Academies is needed?
    Dr. Corotis. Well, I think it would definitely be 
beneficial. As I had mentioned in my remarks, the cross-cutting 
programs are always a challenge in any organization, including 
NIST, and since the biosciences have been ramping up rapidly 
over the last few years, are a vital contribution that NIST is 
making and because, as you point out, they are cross-
disciplinary across the NIST laboratories, it would seem to me, 
speaking as an individual, that that would be an ideal area for 
cross-cutting review. The NRC has done several cross-cutting 
reviews, manufacturing initiative and before that some others, 
so it certainly is prepared to do those and if asked, I am sure 
the National Academies would be happy to put together an 
appropriate panel to do that.
    Ms. Wilson. I don't know if I have time, but in your 
testimony you recommended that the Committee should reauthorize 
NIST at the fullest funding level possible. If that is not 
possible, could you please discuss the tradeoffs that NIST 
would have to make?
    Dr. Corotis. Well, the one thing that I have noticed is 
consistent through the history of the reviews--I have been 
involved for well over a decade--is that there is not what we 
would call, ``fat''. There is not excess there. We have looked 
at the quality and are very impressed with it. We think that if 
there is a decrease in the money available, that NIST should--
and again, I am speaking as an individual here--should look at 
what they would have to cut out, which is really a subject 
matter for VCAT, that looks at what NIST is doing, but that 
they should cut out some things rather than try and cross the 
board to continue doing all they are doing, because the quality 
is very high, but there is no excess of capabilities in there 
for what they are doing. So not being a member of VCAT or of 
NIST, I can't say what they should look at eliminating or what 
it would be, but I can say that our reports have consistently 
shown there is just not extra there that could be cut and have 
them still continue to do the same breadth of programs.
    Ms. Wilson. Thank you.
    Chairman Massie. Thank you, Ms. Wilson.
    I now recognize myself for five minutes.
    I would like to start out with a general question. What 
would you say--and I know this is a little bit like asking 
which one of your children are your favorite children, but what 
would you say the top three things that NIST does, in terms of 
the projects or subcategories that they work on--in essence, if 
you were to prioritize the programs at NIST, what would be the 
highest priority programs, and could--I would like to ask this 
of both of you, Dr. May and Dr. Corotis. You can go first, Dr. 
Corotis.
    Dr. Corotis. I was sure you were going to say Dr. May on 
that one.
    Chairman Massie. He was still writing.
    Dr. Corotis. It is hard for me to be too specific at that, 
because as I say, the National Academies have always been 
charged with looking at is NIST doing it right, doing the 
things they are doing right, and so we have always focused on 
the quality of what they are doing. And there are no programs 
that we have ever reviewed where we haven't come away with a 
very positive feeling about the quality of what they are doing. 
We have looked primarily at the quality, but we have always 
been asked to look at its effectiveness for the country, and at 
the adequate resources for what they are doing. And based on 
that, there are no programs that we found don't have the 
adequate resources to carry it out.
    Chairman Massie. Let me try and ask the question a little 
bit differently.
    Dr. Corotis. Okay.
    Chairman Massie. Let's say I am going over to vote, which I 
will do in about 20 minutes here, I think----
    Dr. Corotis. Okay.
    Chairman Massie. --and I have got three members in the 
elevator, and I am trying to motivate funding for NIST and I 
say well, NIST is important because--and we have only got three 
floors to go.
    Dr. Corotis. Okay, three floors left. Well certainly, it is 
manufacturing initiatives to work to promote U.S. manufacturing 
in a global competition. It is extremely important, and they 
have always been very good at that because there is a time in 
manufacturing when the government needs to have standards and 
measurements to enable free competition. And so knowing when to 
come in and when to step back is something NIST has done very 
well in manufacturing.
    I think in terms of sustainability and safety to U.S. 
communities, they have done an excellent job, whether 
investigations of failures, of accidents, of natural hazards, 
in looking at the importance of long-term planning for the 
sustainability--and by sustainability, I am talking not just 
the environmental and the physical, but the economic and social 
sustainability. All of those are extremely important.
    Chairman Massie. I think the elevator got to the floor.
    Dr. Corotis. All right. I got to two.
    Chairman Massie. I appreciate that. The same question, Dr. 
May, if you could pick three, maybe?
    Dr. May. I want to answer by saying that we must recognize 
that we have already--that NIST sees our laboratory programs as 
being our crown jewels, and we have already seen the 
elimination of our Technology Innovation Program, and the 
funding for our biology performance--program go to zero, so 
that we could infuse those funds into the laboratory program. 
So we certainly need to maintain them.
    And the three things that we do that are critically 
important is cutting edge measurement science. That is the 
foundation for everything we do in the laboratory programs. We 
provide--but again, if we only did cutting edge measurement 
science, it would be hard to distinguish us from a university 
or the National Science Foundation. We also provide world-class 
measurement services to our industry, that is, through our 
Standard Reference Materials, our Standard Reference Data 
products, and our calibration programs. It is important that we 
maintain those.
    And the other thing that we provide is access to world-
class user facilities where scientists from industry and 
academia can come in and use our facilities to do things that 
they would not do, and I have a couple of good examples that I 
can share with you on that. Talking about a large company, for 
example, IBM recently came to our Center for Nanoscale Science 
and Technology because they were trying to divine a next 
generation chip for some of their devices. Now obviously, they 
have the money to buy the $2 million piece of equipment that we 
had; however, they didn't--they thought--they saw it 
advantageous to come in and use our facility and our expertise 
of our staff to work with them to see the--if indeed this idea 
that they had would work so that they could take that back and 
develop that.
    We also had a very, very small company from San Diego who 
came in and wanted to make essentially a GPS-like device that 
would operate underground where you have no access to the 
satellite. Again, they were able to come in. They had an idea, 
worked with our staff to see if it was feasible, which indeed 
they did, then they were able to take that back and start 
developing a process. And we then actually agreed to actually 
develop prototypes for them to make sure the manufacturing 
process is sustainable, so that then they can go back and build 
a factory and do this. So----
    Chairman Massie. Thank you for that example. I am glad to 
hear that at least two of your top three line up with Article 
1, Section 8, Paragraph 5 of the Constitution. So you seem to 
be on mission there with at least two of those.
    I now yield five minutes to Peters from California.
    Mr. Peters. Thank you very much, Mr. Chairman, and thank 
you, gentlemen, both for being here. Dr. May, thank you for 
helping that company from San Diego. That is my hometown.
    Dr. May, I had a question for you. You mentioned in your 
written testimony that NIST's involvement in the smart grid is 
a prime example of how NIST combines its core research 
capability with extensive stakeholder engagement to drive 
technology adoption. So the Smart Grid Interoperability Panel 
which you created is a private-public partnership that develops 
standards for technologies that modernize the electric power 
grid. So we are going to face that in other kinds of sectors, 
so I was kind of curious if you would tell us what was the 
process that you used to incorporate and ensure industry input 
so that we are working with industry to make sure that you got 
the appropriate information?
    Dr. May. Okay, and first of all, let me sort of define 
standards, because the English language sort of uses the same 
word to define, at least in this case, two things. In our 
measurement standards, we are the authority source so we do the 
measurement to support our measurement standards. For our 
documentary standards, and we typically use the same word, this 
is by a consistent process, and the United States actually 
industry leads our standards making process, and we are simply 
a facilitator. So with respect to this partnering, we did both. 
We serve as a convener for the standard--the Smart Grid 
Interoperability Panel, and actually, we spun that out. We led 
that effort until it got mature, working with the industry to 
agree on and adopt documentary standards of protocols and codes 
that would be useful in the smart grid, and then in our 
laboratory work, we actually did research in our Physical 
Measurements Laboratory, primarily to provide the standards--
measurement standards that would allow the development and 
implementation, for example, of smart meters and sensors that 
would be used on the smart grid. So we use our responsibility 
as a convener for the development of documentary standards, 
working with the industry, and then we use our laboratory base 
measurement activity to develop standards for the devices that 
would actually operate on the smart grid and conform to these 
documentary standards that we have developed.
    Mr. Peters. Did any of the stakeholder companies express 
any concern about sharing their information with NIST or with 
the other companies that might have been involved, and if so, 
how did you deal with that?
    Dr. May. Well obviously people are reticent going in. We, 
when necessary, can sign nondisclosure agreements, but in this 
case, that really wasn't necessary. The documentary standards 
that we develop only work at the sort of pre-competitive level. 
We are just trying to find out the laws of the land, if you 
will, and that all players agree to adhere to, and they, in 
this process, don't usually have to divulge any proprietary 
information.
    Mr. Peters. When you are doing standards, I suppose that 
makes sense because it is sort of early in the game.
    Do you think that the voluntary standards--the voluntary 
approach has worked well for NIST?
    Dr. May. It has worked well. It is the process that we use 
in the United States. It has stood the test of time.
    Mr. Peters. Okay. I appreciate, again, both of you 
gentlemen being here. Mr. Chairman, I yield back. Thank you.
    Chairman Massie. Thank you, Mr. Peters.
    We are going to try to do a second round of questions. We 
have votes coming up, but we will go until the votes are 
called. At this point, since I am the only Member here on this 
side, I am going to recognize myself for another five minutes.
    Dr. May, you state in your testimony that the NIST 
laboratory programs worked the frontiers of measurement 
science, however, according to the National Research Council 
review of manufacturing related activities at NIST--additive 
manufacturing research, activities do not constitute the 
cutting edge in this field and are being phased--being, in 
fact, being outpaced by industry, according to them. How has 
NIST responded to this finding, and are there any examples 
where NIST has found themselves in this position and 
discontinued projects? Could you describe that?
    Dr. May. Sure. If--in our laboratory program, if we are not 
making a positive contribution, we don't have any problem at 
all to punt, because there are always more problems there than 
we have resources to address. For example, in our Material 
Measurement Laboratory, we have cut out--we stopped our program 
in combustion science to use the resources there to expand our 
program in atmospheric monitoring. We have reduced some of our 
efforts that provide grants to support fire research to invest 
in some of the manufacturing disciplines. So when we don't have 
critical mass or are not making a significant impact, we 
routinely reprogram our resources out of one area to strengthen 
another.
    Chairman Massie. Thank you for those examples. What about 
the specific case of additive manufacturing research activities 
that were identified?
    Dr. May. We find the strength in that.
    Chairman Massie. And----
    Dr. May. In putting more resources into that, and I think 
it is too early to talk about the success of that. Obviously, 
we will do our internal evaluation and then we will ask for our 
next external evaluation, because it is very hard, as you might 
understand, for us to be totally objective.
    Chairman Massie. Switching gears here. To what degree is 
NIST still involved in the smart grid standards?
    Dr. May. Well, in terms of the laboratory-based research, 
we are still continuing to do research to improve the quality 
of meters and sensors that would be used in smart grid. In 
terms of the Smart Grid Interoperability Panel, that has been 
spun off and that is being led by the private sector there, and 
we are just a contributing member of the team.
    Chairman Massie. Okay. In thinking about the smart grid 
standard, just to be very specific on this question, is it 
advance to having some sort of protocol for transmitting the 
price of electricity to the consumer? For instance, from the 
power plant to the consumer, do they--is there a protocol or 
are you----
    Dr. May. I am not fully aware. I will get that information 
for you. Certainly, that is the intention down the road. 
Exactly whether we are there at this point, I really can't say 
but I will get that information back for you.
    Chairman Massie. Okay. Thank you, Dr. May.
    Dr. Corotis, you mentioned that one of the only areas at 
NIST that has experienced challenges is in managing cross-
cutting research programs. What did the Academies find on this 
front, and what is NIST doing, in your opinion, to address the 
challenges?
    Dr. Corotis. Well, that has been the hardest area, as 
Ranking Member Wilson mentioned also, the cross-cutting ones. 
The recent report of the manufacturing initiative, which is a 
cross-cutting one, was very positive. They felt that NIST had, 
perhaps, through the reorganization of 2009, 2010, been able to 
look at a higher level across at the cross-cutting activities, 
and in the case of manufacturing, it was well-coordinated 
across the newly defined laboratory structure. We haven't yet 
looked at biosciences. I should say that NIST was interested in 
having NRC look at the biosciences this past year, but instead 
focused on the assessment of assessment process and the 
manufacturing. So we haven't seen yet anything with the 
biosciences to be able to assess it, but certainly with the 
manufacturing we saw improvement.
    I was involved, oh, maybe eight years ago in a similar 
cross-cutting in the electronics area where industry was moving 
so fast the question was could NIST have the nimbleness to 
really fulfill its mission there, and we had a generally very 
positive review of that one also, so there certainly are 
positive examples, but it was difficult in the old structure of 
laboratories.
    Chairman Massie. All right, thank you very much.
    I am going to yield five minutes to Ms. Wilson for 
questions.
    Ms. Wilson. Thank you, Mr. Chair.
    This question is for Mr. Corotis. We all know that VCAT 
probably should come and give us some input before we go for 
the reauthorization of NIST, so perhaps at another hearing we 
can get our Chairman to make sure that they are here. In the 
meantime, I need to find out how you can help.
    In your testimony, you mention how the Visiting Committee 
on Advance Technology, which is VCAT, focuses on NIST's 
research portfolio and the National Research Council focuses on 
how NIST is conducting those research activities. One of your 
recommendations was that there needs to be more formal and 
regular interaction between the two groups. Please elaborate on 
this recommendation, and discuss the current relationship and 
tell us what you think the future relationship should include.
    Dr. Corotis. Well, thank you very much.
    Because NIST voluntarily contracts with the National 
Research Council to do the assessment, it reports to the NIST 
administration. It was true that some years ago, the heads of 
the National Academy review and the VCAT would meet together 
and even do briefings together, but somewhere along the way 
that had passed off, and so right now, the National Academies 
give all the reports to the administration of NIST. And of 
course, this is NIST's option, since they contract with the 
National Academies.
    As I remember very vividly on September 11 of 2001, I was 
briefing VCAT on behalf of the National Academies, even though 
I was not Chair of the Committee at that time, so I remember 
that day very specially. My personal feeling is that after 
reading the assessment of assessment study that was done by the 
Academies, that since those three aspects I mentioned of 
management, quality, and relevance are so important that it is 
very hard to separate them into the two categories of is NIST 
doing the right things and is NIST doing things right? And so 
it seems to me that, again, speaking only as an individual 
Chair of this Committee, that for VCAT to hear the results of 
the NRC studies and share them directly along with management 
might be part of an overall plan that could be useful for NIST 
in the long run.
    Ms. Wilson. To follow up, NIST asked the National Academies 
to review the assessment process of research and development 
organizations. That review led to the report entitled ``Best 
Practices in Assessment Research and Development 
Organizations,'' which you discuss in your testimony. You 
mention how it is important to assess the management, quality 
of scientific and technical work, and the impacts and relevancy 
of that work when assessing a research and development 
organization. How is NIST being reviewed on these three items 
currently? Could you please discuss how it is being reviewed?
    Dr. Corotis. Yes, thank you. Clearly, the National 
Academies address the quality of scientific and technical work, 
and that is the number one thing we look at in all the programs 
at NIST that are under assessment in any particular year. NIST 
has also always asked the National Academies, as they always in 
the past dozen years or so in which I have been involved, to 
look at the impact of what is done and the relevance. So those 
two areas have been studied by the National Academies, starting 
with the quality. We have clearly stayed out of management and 
strategic planning issues, feeling that came under the purview 
of VCAT. So we have not offered advice, although once in a 
while we slip in advice anyway even though we haven't been 
asked, but we have really stayed out of the management and 
strategic planning side, although it is hard to keep senior 
people down. But we really haven't focused on that part, and I 
think that the best practices study was an excellent one. I did 
not lead it, although I was a member, and actually a former 
NIST director was the leader of it who had other government 
roles and private industry roles, and I think that it says the 
right thing. You have to start at the management and that was 
listed first, and then you have to look at the quality of what 
is being done and then you have to look at the relevance of it. 
And I think that VCAT comes in at the management and also at 
the relevance and impact in guiding what programs to do.
    Ms. Wilson. Okay. Thank you so much.
    Chairman Massie. Thank you, Ms. Wilson.
    I would like to thank the witnesses today for their 
valuable testimony and for taking the time to come here and 
testify. Dr. May, I look forward to coming and visiting there 
in Gaithersburg very much.
    Dr. May. We would love to have you.
    Chairman Massie. I am not sure when I would make it to 
Colorado, though.
    Dr. Corotis. Maybe for the NCAA final.
    Chairman Massie. My team won't be there.
    But anyway, the record will remain open for two weeks for 
additional comments and for written questions from Members. At 
this time, our votes have been called so we are going to end 
the meeting here. The witnesses are excused, and this hearing 
is adjourned.
    Thank you very much.
    [Whereupon, at 3:50 p.m., the Subcommittee was adjourned.]
                               Appendix I

                              ----------                              


                      Answers to Hearing Questions



Answers to Hearing Questions submitted by Dr. Willie E. May, Associate 
                 Director for Laboratory Programs, NIST

[GRAPHIC] [TIFF OMITTED] T0554.106

[GRAPHIC] [TIFF OMITTED] T0554.107

                              Appendix II

                              ----------                              


                   Additional Material for the Record



        Submitted by Chairman Massie, Subcommittee on Technology

[GRAPHIC] [TIFF OMITTED] T0554.024

[GRAPHIC] [TIFF OMITTED] T0554.025

[GRAPHIC] [TIFF OMITTED] T0554.026

[GRAPHIC] [TIFF OMITTED] T0554.027

[GRAPHIC] [TIFF OMITTED] T0554.028

[GRAPHIC] [TIFF OMITTED] T0554.029

[GRAPHIC] [TIFF OMITTED] T0554.030

[GRAPHIC] [TIFF OMITTED] T0554.031

[GRAPHIC] [TIFF OMITTED] T0554.032

[GRAPHIC] [TIFF OMITTED] T0554.033

[GRAPHIC] [TIFF OMITTED] T0554.034

[GRAPHIC] [TIFF OMITTED] T0554.035

[GRAPHIC] [TIFF OMITTED] T0554.036

[GRAPHIC] [TIFF OMITTED] T0554.037

[GRAPHIC] [TIFF OMITTED] T0554.038

[GRAPHIC] [TIFF OMITTED] T0554.039

[GRAPHIC] [TIFF OMITTED] T0554.040

   Submitted by Dr. Willie E. May, Associate Director for Laboratory 
                             Programs, NIST

[GRAPHIC] [TIFF OMITTED] T0554.041

[GRAPHIC] [TIFF OMITTED] T0554.042

[GRAPHIC] [TIFF OMITTED] T0554.043

[GRAPHIC] [TIFF OMITTED] T0554.044

[GRAPHIC] [TIFF OMITTED] T0554.045

[GRAPHIC] [TIFF OMITTED] T0554.046

[GRAPHIC] [TIFF OMITTED] T0554.047

[GRAPHIC] [TIFF OMITTED] T0554.048

[GRAPHIC] [TIFF OMITTED] T0554.049

[GRAPHIC] [TIFF OMITTED] T0554.050

[GRAPHIC] [TIFF OMITTED] T0554.051

[GRAPHIC] [TIFF OMITTED] T0554.052

[GRAPHIC] [TIFF OMITTED] T0554.053

[GRAPHIC] [TIFF OMITTED] T0554.054

[GRAPHIC] [TIFF OMITTED] T0554.055

[GRAPHIC] [TIFF OMITTED] T0554.056

[GRAPHIC] [TIFF OMITTED] T0554.057

[GRAPHIC] [TIFF OMITTED] T0554.058

[GRAPHIC] [TIFF OMITTED] T0554.059

[GRAPHIC] [TIFF OMITTED] T0554.060

[GRAPHIC] [TIFF OMITTED] T0554.061

[GRAPHIC] [TIFF OMITTED] T0554.062

[GRAPHIC] [TIFF OMITTED] T0554.063

[GRAPHIC] [TIFF OMITTED] T0554.064

[GRAPHIC] [TIFF OMITTED] T0554.065

[GRAPHIC] [TIFF OMITTED] T0554.066

[GRAPHIC] [TIFF OMITTED] T0554.067

[GRAPHIC] [TIFF OMITTED] T0554.068

[GRAPHIC] [TIFF OMITTED] T0554.069

[GRAPHIC] [TIFF OMITTED] T0554.070

[GRAPHIC] [TIFF OMITTED] T0554.071

[GRAPHIC] [TIFF OMITTED] T0554.072

[GRAPHIC] [TIFF OMITTED] T0554.073

[GRAPHIC] [TIFF OMITTED] T0554.074

[GRAPHIC] [TIFF OMITTED] T0554.075

[GRAPHIC] [TIFF OMITTED] T0554.076

[GRAPHIC] [TIFF OMITTED] T0554.077

[GRAPHIC] [TIFF OMITTED] T0554.078

[GRAPHIC] [TIFF OMITTED] T0554.079

[GRAPHIC] [TIFF OMITTED] T0554.080

[GRAPHIC] [TIFF OMITTED] T0554.081

[GRAPHIC] [TIFF OMITTED] T0554.082

[GRAPHIC] [TIFF OMITTED] T0554.083

[GRAPHIC] [TIFF OMITTED] T0554.084

[GRAPHIC] [TIFF OMITTED] T0554.085

[GRAPHIC] [TIFF OMITTED] T0554.086

[GRAPHIC] [TIFF OMITTED] T0554.087

[GRAPHIC] [TIFF OMITTED] T0554.088

[GRAPHIC] [TIFF OMITTED] T0554.089

[GRAPHIC] [TIFF OMITTED] T0554.090

[GRAPHIC] [TIFF OMITTED] T0554.091

[GRAPHIC] [TIFF OMITTED] T0554.092

[GRAPHIC] [TIFF OMITTED] T0554.093

[GRAPHIC] [TIFF OMITTED] T0554.094

[GRAPHIC] [TIFF OMITTED] T0554.095

[GRAPHIC] [TIFF OMITTED] T0554.096

[GRAPHIC] [TIFF OMITTED] T0554.097

[GRAPHIC] [TIFF OMITTED] T0554.098

[GRAPHIC] [TIFF OMITTED] T0554.099

[GRAPHIC] [TIFF OMITTED] T0554.100

[GRAPHIC] [TIFF OMITTED] T0554.101

[GRAPHIC] [TIFF OMITTED] T0554.102

[GRAPHIC] [TIFF OMITTED] T0554.103

[GRAPHIC] [TIFF OMITTED] T0554.104

[GRAPHIC] [TIFF OMITTED] T0554.105

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
